Credit Card - Variable Rate Line of Credit Agreement - Pricing Information
There are two parts to this Credit Card Agreement: Dollar Bank Pricing Information and the Dollar Bank Customer Agreement.

Pricing Information
Annual Percentage Rate (APR)
for Purchases

0.00% APR introductory rate for the first 6 months. After that, your APR will be 12.24%.

APR for Balance Transfers

0.00%. APR introductory rate for the first 6 months. After that, your APR will be 12.24%. This APR will vary with the market
based on the Prime Rate.

APR for Cash Advances

14.24%. This APR will vary with the market based on the Prime Rate.

How to Avoid Paying Interest
on Purchases

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any interest on purchases if you
pay your entire balance by the due date each month.

Minimum Finance Charge

If you are charged interest, the charge will be no less than $0.50.

For Credit Card Tips from the
Consumer Financial Protection
Bureau

To learn more about factors to consider when applying for or using a credit card, visit the website of the
Consumer Financial Protection Bureau at: https://www.consumerfinance.gov/learnmore.

This APR will vary with the market based on the Prime Rate.

Fees
Annual Fee

None

Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction

Either $5.00 or 1% of the amount of the transfer, whichever is greater, for the first 6 months. Then $5.00 or 3% of the transfer,
whichever is greater. Maximum fee is $150.00.
Either $5.00 or 3% of the cash advance, whichever is greater.
3% of the $US value of each transaction. $0.50 minimum.

Penalty Fees
• Late Payment
• Returned Payment

Up to $35.00
Up to $35.00

Information is current as of June 1, 2021 and may change thereafter. For details, call 1-800-447-2823. For active duty service members and their dependents,
please see item 24 of this agreement for the Military Lending Act disclosures.
How We Will Calculate Your Balance: We use a method called “average daily balance” (including new purchases). See your account agreement for more details.
Loss of Introductory APR: We may end your introductory APR if your payment is more than 30 days past due. Your regular rate will then apply.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your account agreement.

Dollar Bank Customer Agreement
This Agreement and Disclosure Statement contains the terms and conditions which apply to my line of credit plan (the “Plan”) with Dollar Bank, Federal Savings Bank.
1. Meaning of Certain Words. The words “I,” “me,” and “my,” which also mean “we,” “us,” and “our” if more than one customer, mean the person or persons who use or authorize the use of
the Credit Card or sign an application for a credit card. The words “you,” “your,” and “yours” mean Dollar Bank, Federal Savings Bank. “Credit Card” means the Mastercard cards issued
in my name for use with my Account. “Account” means the account on your books that records the Purchases I make, the Balance Transfers I make and the Cash Advances I get from
you pursuant to, and also all FINANCE CHARGES and other charges and fees you impose from time to time under the Plan. “Advance” means any extension of credit I obtain under
the Plan, whether in the form of a Purchase, a Balance Transfer or a Cash Advance. “Purchase” means a purchase of goods or services that I charge to my Account pursuant to the Plan.
“Balance Transfer” means a transfer of money I owe to another credit card company to my Dollar Bank Credit Card Account. “Cash Advance” means any extension of credit I obtain under
the Plan which is not a Purchase or Balance Transfer. “Credit Access Checks” means special checks drawn on my Account which are available only if I request them.
2. Use of Credit Card Plan. My use of the Account or Credit Card means that I accept this Agreement. The Plan permits me to make Purchases from merchants, make Balance Transfers
and obtain Cash Advances. I may make Purchases by presenting the Credit Card to a merchant and signing a sales slip or by providing my Account number and other appropriate
information to a merchant. I may make a Balance Transfer by using Credit Access Checks. I may obtain Cash Advances by using Credit Access Checks or by using the Credit Card at
financial institutions or automated teller machines (“ATMs”) that accept the credit card. If the Credit Card is used at a financial institution, I must sign a Cash Advance request. If the Credit
Card is used at an ATM, I must use my Personal Identification Number (“PIN”) and instructions via the ATM will be the same as a written Cash Advance request bearing my signature. All
advances under the Plan which are paid or advanced by you are loans to me. I will not use my Credit Card, make a Balance Transfer or write a Credit Access Check to obtain loans in
excess of the Available Credit (the difference between the Outstanding Balance and the Limit, as defined below) on my Account.
3. Ownership. The Credit Card remains your property and may be cancelled by you at any time without notice. I agree to surrender the Credit Card and all other access devices and to
discontinue use of the Plan by any other means immediately upon your request.
4. Maximum Credit Limit. You will provide me with notice of the total dollar amount against which I may obtain Advances under the Plan (the “Limit”). I agree that you may reduce the
Limit at any time upon notice to me. I agree never to allow the total balance that I owe you from time to time, including the principal balance and accrued FINANCE CHARGES and other
charges and fees imposed under the Plan (the “Outstanding Balance”) to exceed the Limit. I also agree that you are not obliged to, but may in your sole discretion, extend credit to me
for an amount that would make the Outstanding Balance exceed the Limit, or for any amount if the Outstanding Balance is already over the Limit. I shall pay any amounts which exceed
my Limit upon demand.
5. You Agree. Subject to my promise not to let my Outstanding Balance exceed my Limit: you agree (1) to pay the merchant for all properly drawn sales slips which bear the imprint of the
Credit Card and are signed by me or which are otherwise authorized; and (2) to honor properly drawn Credit Access Checks and requests for Cash Advances which bear the imprint of
the Credit Card and are signed by me or which include my PIN; and (3) to execute Balance Transfers in a timely manner regardless of the method I choose to enable this option.
6. I Agree. I agree (1) to pay you for all Advances, fees and charges, if any, and FINANCE CHARGES on my Account, in U.S. Dollars according to the terms and conditions of this
Agreement; (2) to provide you with such credit information as you may request from time to time; (3) to notify you in writing if a Periodic Statement (as defined below) is incorrect within
60 days of the date it is mailed, and that my failure to do so means the statement is correct and accepted by me; (4) to pay, as permitted to be charged under applicable law, costs and
expenses (including reasonable attorney fees) incurred by you in any collections proceedings initiated to collect amounts owed to you by me; (5) to notify you of any lost or stolen Credit
Cards or Credit Access Checks; and (6) not to permit anyone other than myself to use the Credit Card, Credit Access Checks or any other feature of the Credit Card Plan.
7. Periodic Statement. If there is any activity on my Account or there is an Outstanding Balance on my Account, you agree to send me a Periodic Statement showing the amount of all
Cash Advances, Purchases, Balance Transfers, FINANCE CHARGES and other charges or fees, and payments and credit posted to my Account during the billing cycle (the “Periodic
Statement”). The Periodic Statement will also show me the total amount due as of the end of the billing cycle (the “New Balance”), the average daily balances of my Purchases, Balance
Transfers and Cash Advances, the minimum monthly payment amount (the “Minimum Payment”) and the due date for the receipt of the Minimum Payment (the “Payment Due Date”).
8. Finance Charge. I also agree to pay a FINANCE CHARGE on my Account which you will impose as follows:
a. Periodic FINANCE CHARGE
The periodic FINANCE CHARGE will not be imposed on Purchases and Balance Transfers on my current Periodic Statement if I pay the total New Balance shown on my current
Periodic Statement by the Payment Due Date. Otherwise, the periodic FINANCE CHARGE will be imposed on the Purchases, Balance Transfers and Cash Advances from the
transaction date of the Purchase, Balance Transfer or Cash Advance except as described below:
(1) Minimum Periodic FINANCE CHARGE
If periodic FINANCE CHARGES on Purchases or Balance Transfers are imposed for the current billing cycle, a minimum Periodic Finance Charge of $.50 on
Purchases or Balance Transfers will be imposed for any such billing cycle in which periodic FINANCE CHARGE of less than $.50 on Purchases or Balance Transfers
would otherwise be imposed.
(2) Partial Grace Period for Periodic FINANCE CHARGES
If during the previous billing cycle, my New Balance was paid in full by the Payment Due Date, then in the current billing cycle you will provide a grace period on the
amount of the Purchase or Balance Transfer balance remaining from the previous billing cycle that is paid by the Payment Due Date for the current billing cycle based
on how payments are applied to my Account.
(3) You will compute the periodic FINANCE CHARGE for the current billing cycle as follows:
(A) Purchases
Periodic FINANCE CHARGES on Purchases are imposed for the current billing cycle unless I paid, by the Payment Due Date, the total New Balance shown on
my Periodic Statement. You figure the interest charge for Purchases on my Account by applying the periodic rate for Purchases to the “average daily balance” for
Purchases. To get the “average daily balance” you take the beginning balance of my Account each day for Purchases, add any new Purchases and subtract any
unpaid interest or other finance charges and any payments or credits. This gives you the daily balance for Purchases. Then, you add up all of the daily balances
for the billing cycle and divide the total by the number of days in the billing cycle. This gives you the “average daily balance” for Purchases. I understand that
the “average daily balance” of current billing cycle Purchases will be multiplied by the number of days in the billing cycle and then by the daily periodic rate to
determine the periodic FINANCE CHARGES on Purchase balances for the current billing cycle.
(B) Balance Transfers
Periodic FINANCE CHARGES on Balance Transfers are imposed for the current billing cycle unless I paid, by the Payment Due Date, the total New Balance
shown on my Periodic Statement. You figure the interest charge for Balance Transfers on my Account by applying the periodic rate for Balance Transfers to the
“average daily balance” for Balance Transfers. To get the “average daily balance” you take the beginning balance of my Account each day for Balance Transfers,
add any new Balance Transfers and subtract any unpaid interest or other finance charges and any payments or credits. This gives you the daily balance for
Balance Transfers. Then, you add up all of the daily balances for the billing cycle and divide the total by the number of days in the billing cycle. This gives you
the “average daily balance” for Balance Transfers. I understand that the “average daily balance” of current billing cycle Balance Transfers will be multiplied by
the number of days in the billing cycle and then by the daily periodic rate to determine the periodic FINANCE CHARGES on Balance Transfer balances for the
current billing cycle.
(C) Cash Advances
Periodic FINANCE CHARGES are imposed on Cash Advances for the current billing cycle. You figure the interest charge for Cash Advances on my Account
by applying the periodic rate for Cash Advances to the “average daily balance” for Cash Advances. To get the “average daily balance” you take the beginning

(4)

balance of my Account each day for Cash Advances, add any new Cash Advances and subtract any unpaid interest or other finance charges and any payments
or credits. This gives you the daily balance for Cash Advances. Then, you add up all of the daily balances for the billing cycle and divide the total by the number
of days in the billing cycle. This gives you the “average daily balance” for Cash Advances. I understand that the “average daily balance” of current billing cycle
Cash Advances will be multiplied by the number of days in the billing cycle and then by the daily periodic rate to determine the periodic FINANCE CHARGES
on Cash Advances.
Periodic FINANCE CHARGES will be figured by applying a variable daily periodic rate (determined according to the chart below and the Variable Rate Disclosures as
set forth below) to the “average daily balances” of Purchases, Balance Transfers and Cash Advances as explained above.
ANNUAL PERCENTAGE
RATE*

DAILY PERIODIC
RATE*

YOU WILL APPLY A DAILY PERIODIC RATE AS FOLLOWS:
Introductory Rates:
Purchases
Balance Transfers

0.00% (f)		
0.00% (f)

Regular Rates:
Purchases
12.24% (v)
			
(WSJ Prime + 8.99%)
Balance Transfers
12.24% (v)
			
(WSJ Prime + 8.99%)
Cash Advances
14.24% (v)
			
(WSJ Prime + 10.99%)

0.00%
0.00%
0.0335%
0.0335%
0.0390%

* Listed rates are calculated based on the WSJ Prime Rate (described later) as of
June 1, 2021 and may change thereafter. For current rate calculations
call 1-800-447-2823.
(f) – fixed
(v) – variable

The daily periodic rate for the billing cycle is 1/365th of the corresponding ANNUAL PERCENTAGE RATE in effect for the billing cycle except in a leap year in which
case the daily periodic rate for the billing cycle is 1/366th of the corresponding ANNUAL PERCENTAGE RATE in effect for the billing cycle. The corresponding ANNUAL
PERCENTAGE RATE may change (increase or decrease) monthly based on changes in the WSJ Prime Rate, as described in the Variable Rate Disclosures below.
b. Transaction FINANCE CHARGE
(1) For Balance Transfers
For Balance Transfers obtained by using Credit Access Checks or by any other means which you may provide to me, the Transaction FINANCE CHARGE is 1% of the
amount of each such Balance Transfer during the Introductory Period, after which the amount of each transfer is 3% of each Transfer. In either case, the minimum fee is
$5.00 and the maximum fee is $150.00.
(2) For Cash Advances
For Cash Advances obtained by using the Credit Card at financial institutions that accept the Credit Card, by using Credit Access Checks or by using the Credit Card at
automated teller machines or similar machines that accept the Credit Card, the Transaction FINANCE CHARGE is 3% of the amount for each such Cash Advance, with a
$5.00 minimum fee for each such Cash Advance.
9. Variable Rate Disclosures. Minimum and Maximum APR.
a. I understand that the daily periodic rate and the corresponding ANNUAL PERCENTAGE RATE are variable rates that may change (increase or decrease) from time to time based
on movements of the WSJ Prime Rate. The “WSJ Prime Rate” means the Prime Rate (the highest of multiple Prime Rates) published in the “MONEY RATES” column of The Wall
Street Journal. The WSJ Prime Rate is not represented or intended to be the lowest or most favorable rate of interest offered to your customers. Any change in the corresponding
ANNUAL PERCENTAGE RATE based on a change in the WSJ Prime Rate will take effect on the first day of the billing cycle following a change in the WSJ Prime Rate in effect
on the 10th day of the prior calendar month. If the 10th falls on a day when The Wall Street Journal is not published, the WSJ Prime Rate will be the Prime Rate published the
last date prior to the 10th. For example, a change in the WSJ Prime Rate of one percentage point on the 10th day of any calendar month (or the last publication date prior to the
10th) will result in a one percentage point change in the same direction in the corresponding ANNUAL PERCENTAGE RATE throughout the next billing cycle. Any change in the
corresponding ANNUAL PERCENTAGE RATE will apply to new Advances and to existing Account Balances on my Account. I also understand that the daily periodic rate will
always be 1/365 of the corresponding ANNUAL PERCENTAGE RATE. For example, if (1) my initial corresponding ANNUAL PERCENTAGE RATE has been the WSJ Prime Rate
+ 8.99%; (2) the prior WSJ Prime Rate had been 4.00% but increased to 5.00% as of December 10, 2021, and my next billing cycle started on January 1, 2022, the corresponding
ANNUAL PERCENTAGE RATE would be 13.99%, and the daily periodic rate would be 0.0383% throughout my January 1 billing cycle.
b. I understand that the corresponding ANNUAL PERCENTAGE RATE will not fall below 0.00% or exceed the maximum rate authorized from time to time by applicable Pennsylvania
or federal law. Further, I know that an increase in the corresponding ANNUAL PERCENTAGE RATE will result in an increase in the amount of periodic FINANCE CHARGE, the
Minimum Payment and the Outstanding Balance.
c. You may offer a special introductory ANNUAL PERCENTAGE RATE. If you do, it will be disclosed as the Introductory corresponding ANNUAL PERCENTAGE RATE (together
with the introductory daily periodic rate) and will apply to my Account for 6 months after my Account opening. The initial daily periodic rate and the corresponding ANNUAL
PERCENTAGE RATE that would have been in effect were it not for the introductory rate would be disclosed as the Regular Rate. The introductory rate will apply to Purchases
and Balance Transfers. It will not apply to Cash Advances.
10. Credit Life Insurance. If I request it, you will obtain and finance the purchase of credit life insurance on my life if I am under the age of 66 in PA, OH and NC and if I am under the age
of 70 in VA, payable to you in an amount equal to the Outstanding Balance from time to time subject, however, to any maximum limitations established by the insurer in the applicable
certification or policy. If more than one person signs an application for a Credit Card, I understand that only one of the persons can be covered and that person to whom the coverage is
applicable must sign the credit life insurance request section of the application for a Credit Card. This coverage will end when the insured person reaches 66 years of age in PA, OH and
NC and 70 years of age in VA. For coverage of the insured person, you will impose a charge each month. The amount of the charge may be updated periodically. The “Life Insurance
Balance” is the total amount due as of the end of the billing cycle. I understand that I do not need to take out any credit insurance to obtain my Credit Card or open my Account, and I
may cancel any credit insurance at any time by notifying you in writing. If I choose Credit Life Insurance, the current rates are 70¢ per month in Pennsylvania, 62¢ per month in Ohio,
62¢ per month in Virginia and 68¢ per month in North Carolina per one thousand dollars of the Life Insurance Balance. I understand that these rates are subject to change without notice
and may increase after my Account is opened.
11. Payments. I must mail all payments due under the Plan to the address you furnish me from time to time. I can pay my Outstanding Balance in full at any time. Since the Periodic
FINANCE CHARGE is computed by application of daily rate to the “average daily balances” of Purchases, Balance Transfers and Cash Advances, as explained above, the exact amount
required to pay the Account in full cannot be determined from my Periodic Statement. Thus, whenever I wish to pay my Outstanding Balance in full, I must contact you to determine the
Outstanding Balance.

12. Minimum Payment. I may pay either the entire Outstanding Balance or less than the total amount due unless the entire Outstanding Balance has become due as provided in paragraph
17 below; however, I must pay a Minimum Payment each month without fail. If the New Balance on my Periodic Statement is $10.00 or less, the Minimum Payment is the New Balance.
Otherwise, the Minimum Payment is computed by multiplying the New Balance by 2.00%. If my Account is past due, the Minimum Payment will also include the past due amount. I agree
that you may change the method of figuring the Minimum Payment from time to time upon 45 days prior notice to me. As explained in paragraph 8 above, the periodic FINANCE CHARGE
is imposed by application of a daily periodic rate to the “average daily balances” of Purchases, Balance Transfers and Cash Advances.
13. Fees.
a. Late Payment Fee.
My Minimum Payment will be past due if it is not received by you on or before the Payment Due Date shown on the applicable Periodic Statement. A late fee will be charged to
my Account if at least the Minimum Payment (which includes any past due amount) is not received by you within Three (3) days after the Payment Due Date in any month. The
late fee shall be equal to $25 for the first late fee in any six consecutive billing cycles and $35 for any additional late payment during the same six consecutive billing cycles.
However, in no event shall the late fee be greater than the Minimum Payment due prior to the charging of the late fee. You agree that you will not charge a late fee for the same
event or transaction in which you charge a returned check payment fee.
b. Returned Payment Check Fee.
If I make payment by check and the check is returned unpaid for any reason, my Account will be charged a returned check payment fee. The returned payment check fee shall
be equal to $25 for the first late fee in any six consecutive billing cycles and $35 for any additional returned check during the same six consecutive billing cycles. However, in
no event shall the returned payment check fee be greater than the Minimum Payment due prior to the date on which the check is returned. You agree that you will not charge a
returned check payment fee for the same event or transaction in which you charge a late fee.
c. Stop Payment Fee.
A $10 fee will be charged to my Account if I request that you place a stop payment on a Credit Access Check.
d. Check Printing Fees.
My Credit Access Checks are free.
e. Copy Fees.
If I request a copy of a Periodic Statement, a charge slip or other document not in connection with a billing error, you will charge my Account as follows:
(1) $3 for each copy of a Periodic Statement other than the Periodic Statement for the current billing cycle or the two preceding billing cycles; and
(2) $2 for each copy of a charge slip or other document.
f. Foreign Exchange Fee.
A 3% fee, with a minimum of $0.50, will be charged to my Account for each Advance involving currency other than U.S. Dollars. The amount of any such Advance will be converted
into U.S. Dollars. The exchange rate used to convert foreign currency into U.S. Dollars for any such Advance will be selected by Mastercard from the range of exchange rates
available in the wholesale currency markets or the applicable government-mandated exchange rate. The 3% fee will be charged to my Account based on the U.S. Dollar amount
of the Advance.
g. Lost Card Fee.
You reserve the right to charge me a fee of $10.00 for replacement of lost cards.
14. Credit Access Checks. Credit Access Checks are available upon request after the initial supply. You reserve the right to review and deny any requests for Credit Access Checks due
to unsatisfactory Account status.
15. Application of Payments. Payments you receive from me will be applied as follows: (1) you will apply payments first to interest and then to credit life charges, if applicable (2) you
will then apply payments to fees that are not late charges; (3) you will then apply payments to balances with the highest APR and then to balances in descending order based on APR
(highest to lowest) treating late fees as purchases.
16. Events of Default. I will be in default under this Agreement if any of the following events or circumstances occurs: (a) if I fail to comply with the Minimum Payment or any other terms,
covenants or conditions of this Agreement, or of any other agreement I have with you; (b) if I made a material false or misleading statement in my credit application; (c) if I exceed my
Limit; (d) if I die or become insolvent; (e) if a petition is filed or other proceedings are started under the Federal Bankruptcy Code of any state insolvency statute by or against me; (f) if
a judgement or tax lien is filed against me; (g) if a Receiver is appointed for me; or (h) if a writ or order of attachment, levy or garnishment is issued or any proceeding is started against
me or any of my property, assets or income.
17. Entire Balance Due. If any of the above events or circumstances of defaults occurs, your obligation to make further Advances to me shall, at your option and without prior notice to me,
immediately end and my entire Outstanding Balance shall, at your option, become immediately due and payable without prior notice to me. Upon acceleration, interest shall be due on
the entire Principal Balance at the variable ANNUAL PERCENTAGE RATE provided in Section 8.3, until paid in full, including after you obtain a judgement against me.
18. Termination. You or I may terminate this Agreement at any time by providing notice to the other, and no further Advances to me shall occur. Termination will not affect my obligation to
repay amounts owed under the Plan. I agree to return all Credit Cards and Credit Access Checks to you upon termination of this Agreement.
19. Amendments. You may amend the terms of this Agreement, from time to time, upon written notice to me at my address shown in your records. Except as otherwise permitted by law, my
use of the Plan after the effective date of such amendment shall constitute consent to the new terms, and the new terms shall apply to both new Advances made on or after the effective
date and to any unpaid Outstanding Balances that I owe you on the effective date.
20. Joint and Several Liability. If more than one person signs an application for a Credit Card, each of us is separately and all of us jointly are obligated under this Agreement. Each of us
is authorized to act on behalf of the other person(s) with regard to the Plan and the Agreement and written notice to one person is notice to the other person(s).
21. Liability for Unauthorized Use. If I notice the loss or theft of my credit card or a possible unauthorized use of my card, I should write to you immediately at Credit Card Operations,
P.O. Box 1700, Pittsburgh, PA 15230 or call 1-877-732-2296. I will not be liable for any unauthorized use that occurs after I notify you. I may, however, be liable for unauthorized use that
occurs before my notice to you. In any case, my liability will not exceed $50. I will not be liable for the unauthorized use of my credit card for transactions covered by Mastercard’s Zero
Liability Policy. I understand that the Mastercard Zero Liability Policy does not apply to commercial credit cards or ATM transactions or PIN transactions not processed by Mastercard. I
understand I may be liable for the unauthorized use of my credit card for transactions not covered by Mastercard’s Zero Liability Policy.
22. Change of Address. I will advise you promptly if I change my mailing address. All written notices and statements from you to me will be considered given when placed in the U.S. Mail,
postage prepaid, and addressed to me at my current address in your records.
23. Miscellaneous. You shall have no liability for any third party refusal to accept or honor the Credit Card or Credit Access Checks. Foreign Purchases and Cash Advances are subject to
monetary exchange rates which will be reflected on my statements. You may accept late payments or partial payments, or checks, drafts or money orders marked “Payment in Full,”
without losing any of your rights under this Agreement. If any provision of this Agreement is held to be invalid, such invalidity will not affect the remaining provisions. This Agreement is
governed under the laws of the Commonwealth of Pennsylvania and federal law.
24. Military Lending Act. Through the Military Lending Act, federal law provides important protections to members of the Armed Forces and their dependents relating to extensions
of consumer credit. In general, the cost of consumer credit to a member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent.
This rate must include, as applicable to the credit transaction or account: The cost associated with credit insurance premiums; fees for ancillary products sold in connection with the
credit transaction; any application fee charged (other than certain application fees for specified credit transactions or accounts); and any participation fee charged (other than certain
participation fees for a credit card account).

Payment Obligation (Military Lending Act)
You must pay a Minimum Payment each month. If the New Balance on your Periodic Statement is $10.00 or less, the Minimum Payment is the New Balance. Otherwise, your
Minimum Payment is calculated by multiplying the New Balance by 2.00%.
Oral Disclosures (Military Lending Act)
Please call 1-844-565-6725 (toll-free) to receive oral disclosures about the Military Lending Act and your related Credit Card payment obligations.
Cash Back Rebate Terms and Conditions (For Rebate Cards Only)
Rebates are calculated as 1.25% of net monthly purchases (total purchases less credit and returns), which will be displayed on Periodic Billing Statements as “Cash Back Rebate.”
Open accounts that are not in default under this Agreement or otherwise restricted will accumulate rebates; however the Cash Back Rebate Amount must be at least $10.00 before a
distribution will be made. The rebate will be distributed semi-annually in January and July and will be based on rebate balances at the end of December and June. Accounts with rebate
amounts of less than $10.00 or that are in default or otherwise restricted are not eligible for distributions. If an account is not eligible for a distribution for any reason in one distribution period,
the accumulated rebates will carry over to the next period. If an account is closed for any reason, all accumulated Cash Back Rebates for that account will be forfeited.
The account holder is responsible for any taxes on Cash Back Rebates. Dollar Bank reserves the right to cancel or otherwise change the terms applicable to the Cash Back Rebate
program at any time with 30 days prior written notice.
YOUR BILLING RIGHTS: KEEP THIS NOTICE FOR FUTURE USE
This notice tells you about your rights and our responsibilities under the Fair Credit Billing Act.
What To Do if You Find a Mistake on Your Statement
If you think there is an error on your statement, write to us at:
Dollar Bank Card Services
2700 Liberty Avenue
Pittsburgh, PA 15222
In your letter give us the following information:
• Account information: Your name and account number.
• Dollar amount: The dollar amount of the suspected error.
• Description of problem: If you think there is an error on your bill, describe what you believe is wrong and why you believe it is a mistake.
You must contact us:
• Within 60 days after the error appeared on your statement.
• At least 3 business days before an automated payment is scheduled, if you want to stop payment on the amount you think is wrong.
You must notify us of any potential errors in writing. You may call us, but if you do we are not required to investigate any potential errors and you may have to pay the amount in question.
What Will Happen After We Receive Your Letter
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell you that we received your letter. We will also tell you if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either correct the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
• We cannot try to collect the amount in question, or report you as delinquent on that amount.
• The charge in question may remain on your statement, and we may continue to charge you interest on that amount.
• While you do not have to pay the amount in question, you are responsible for the remainder of your balance.
• We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
• If we made a mistake: You will not have to pay the amount in question or any interest or other fees related to that amount.
• If we do not believe there was a mistake: You will have to pay the amount in question, along with applicable interest and fees. We will send you a statement of the amount
you owe and the date payment is due. We may then report you as delinquent if you do not pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you must write to us within 10 days telling us that you still refuse to pay. If you do so, we cannot report you as delinquent
without also reporting that you are questioning your bill. We must tell you the name of anyone to whom we reported you as delinquent, and we must let those organizations know when the
matter has been settled between us.
If we do not follow all of the rules above, you do not have to pay the first $50 of the amount you question even if your bill is correct.
Your Rights if You Are Dissatisfied With Your Credit Card Purchases
If you are dissatisfied with the goods or services that you have purchased with your credit card, and you have tried in good faith to correct the problem with the merchant, you may have the
right not to pay the remaining amount due on that purchase.
To use that right, all of the following must be true:
1. The purchase must have been made in your home State or within 100 miles of your current mailing address, and the purchase price must have been more than $50.
(Note, neither of these are necessary if your purchase was based on an advertisement we mailed to you, or if we own the company that sold you the goods or services.)
2. You must have used your credit card for the purchase. Purchases made with cash advances from an ATM or with a check that accesses your credit card account do not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with the purchase, contact us in writing at:
Dollar Bank Card Services
2700 Liberty Avenue
Pittsburgh, PA 15222
While we investigate, the same rules apply to the disputed amount as discussed above. After we finish our investigation, we will tell you our decision. At that point, if we think you owe an
amount and you do not pay we may report you as delinquent.
Equal Housing Lender. Member FDIC. Copyright © 2021, Dollar Bank, Federal Savings Bank.
F4045

CCD290_21

